                        Department of the Interior
                       Office of Inspector General




           AUDIT REPORT



         U.S. Fish and Wildlife Service
           Federal Assistance Grants
             Awarded to the State of
      Texas Parks and Wildlife Department,
            From September 1, 2002,
           Through August 31, 2004




Report No. R-GR-FWS-0014-2005   January 2007
                 United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                               12030 Sunrise Valley Drive, Suite 230
                                      Reston, Virginia 20191

                                                                                   January 30, 2007
                               FINAL AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Christina M. Bruner
            Director of External Audits

Subject:    Audit on the U.S. Fish and Wildlife Service Federal Assistance
            Grants Awarded to the State of Texas Parks and Wildlife Department, From
            September 1, 2002, Through August 31, 2004 (No. R-GR-FWS-0014-2005)

        This audit report presents the results of our audit of costs incurred by the State of Texas
(State) Parks and Wildlife Department (Department). The Department incurred the costs under
the U.S. Fish and Wildlife Service (FWS) Federal Assistance grants. The audit included total
reported outlays of approximately $96 million on FWS grants open during State fiscal years
(SFYs) ended August 31 of 2003 and 2004 (see Appendix 1). The audit also evaluated
Department compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of fishing and hunting license revenue and the reporting of
program income.

        We found the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned $4.3 million ($2.5 million federal share) claimed for
unauthorized activities, unallowable costs, and costs incurred outside the grant period. We also
identified issues with the use of license revenues, program income reporting, property and asset
management, and certification of license holders.

  We provided a draft report to FWS and the Department for response. This report includes a
summary of Department and FWS Region 2 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in Appendix 4.

       Please respond in writing to the findings and recommendations included in this report by
April 30, 2007. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Mr.
Tim Horsma, at 916-978-5668 or me at 703-487-5345.

cc:   Regional Director, Region 2, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife programs. The Acts allow FWS to reimburse the states up to 75 percent of the
eligible costs incurred under the grants. The Acts also specify that state hunting and fishing
license revenues cannot be used for any purpose other than the administration of the state’s fish
and game department.

Objectives
The objectives of our audit were to determine if the Department:

      • claimed the costs incurred under the Federal Assistance grants in accordance with the
           Acts and related regulations, FWS guidelines, and the grant agreements;

      • used state hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      • reported and used program income in accordance with federal regulations.

Scope
The audit work included total reported outlays of approximately $96 million on 129 FWS grants
that were open during SFYs 2003 and 2004 (see Appendix 1). We performed our audit at the
Department headquarters in Austin, Texas, and visited 7 wildlife and 12 fishery related locations
(see Appendix 2). This audit was performed to supplement, not replace, the audits required by
the Single Audit Act of 1984, as amended, and by the Office of Management and Budget
Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and auditing procedures as
necessary under the circumstances. Our tests and procedures included:

      •    examining the evidence supporting selected expenditures charged to the grants by the
           Department;




1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.

                                                          2
   •   reviewing transactions and supporting documentation related to purchases, other direct
       costs, drawdowns of reimbursements, in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to review equipment and other property; and

   •   determining whether the Department used fishing license revenues solely for sport fish
       and wildlife program purposes.

To the extent possible, we relied on the work of the Texas State Comptroller of Public Accounts
and the Texas State Auditor’s Office to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not project the results of the tests to the total population of
recorded transactions nor did we evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On March 3, 2003, we issued an advisory report, “U.S. Fish and Wildlife Service Federal Aid
Grants to the State of Texas Parks and Wildlife Department, Under Federal Aid Grants from the
U.S. Fish and Wildlife Service from September 1, 1995 through August 31, 1997,” which
summarized the results of the audit work performed by the Defense Contract Audit Agency. We
followed up on all findings in the report and determined that they are all considered resolved and
implemented by the Department of Interior, Office of the Assistant Secretary for Policy,
Management, and Budget.

We also reviewed the Texas Comprehensive Annual Financial Reports and Single Audit Reports
for SFYs 2003 and 2004. The Single Audit Report for SFY2004 identified a finding that the
Department reported audit period revenues instead of expenditures. The audit report noted that
the net adjustment was not material.




                                                 3
                                    Results of Audit

Audit Summary
We found the Department complied, in general, with applicable grant provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified the findings
listed below, including $4.3 million in questioned costs. We discuss these findings in further
detail in the Findings and Recommendations section.

        Questioned costs. The Department claimed costs that were unauthorized, unsupported,
        and unallowable, or incurred outside the grant period. As a result, we questioned $4.3
        million in costs ($2.5 million federal share).

        Inadequate accounting for license revenue use. The Department’s procedures for
        reporting expenditures were not adequate to demonstrate whether the Department used
        license revenues solely for allowable purposes.

        Unsupported program income. The Department did not maintain the support
        necessary to identify the sources of program income.

        Noncompliance with real property and equipment controls. The Department’s asset
        inventory did not identify the asset-funding source.

        Duplicate licenses not removed. The Department’s certification of license holders did
        not exclude duplicate holders.

Findings and Recommendations

A.     Questioned Costs

       1.     Costs Claimed for Funded Grant Activity -— $1.5 million

              In 1987, the Department established a public hunting program whereby hunters
              could obtain access, through the purchase of an annual permit, to public and
              privately-owned land throughout the State. The Department claimed $2.9 million
              in costs related to the program under Public Hunting Opportunity Grants W-131-
              S-8 and W-131-S-9. They received a reimbursement of $1.5 million from grant
              funds. However, the Department generated $3.1 million in permit revenues for
              the public hunting program, which exceeded the total $2.9 million in costs
              claimed under the grant.

              Title 50 C.F.R. § 80.14 (c) prohibits Federal Assistance funds from being used to
              produce income. In addition, Title 50 C.F.R. § 80.16 states that payments shall be
              made for the federal share of allowable costs incurred by the state in
              accomplishing approved projects. Title 2 C.F.R. 225, appendix A, section 3, lists

                                               4
factors for determining whether costs are allowable. To be allowable under
federal awards, costs must be necessary and reasonable, allocable, authorized, and
adequately documented.

Department officials stated that public hunting permit fees are not a dedicated
revenue source and that it is not mandatory that those funds be used to pay for
costs related to public hunting. However, funds were used to pay for costs related
to public hunting in the grant years; payments to participating landowners
($1,641,311) were determined based on the amount of permit revenue remaining
after deducting program administrative costs, which included expenses from
permit sales ($245,872), expenses from conducting public hunts ($187,263), and
other administrative costs ($829,385). Additionally, the State literature on the
program states the Department’s intention to use permit revenue for the program.
The 1987 Public Hunting Map Booklet stated a need for a predominantly user-
funded program. The following year’s booklet states, “The program proved
extraordinarily cost effective for the Department because it is funded by you – the
permit purchaser – and not tax dollars or license fees.”

We have concluded that the permit revenue of $3.1 million was more than
sufficient to fund permit-related expenditures of $2.9 million, and as such, these
costs are unallowable.

Recommendations

We recommend FWS:

1. resolve the $1.5 million questioned costs for grants W-131-S-8 and W-131-S-
   9 for SFYs 2003 and 2004 and

2. evaluate whether the public hunting program is appropriate for grant funding.

Department Response

The Department concurred with the audit finding and agreed that the manner in
which the Department operated its public hunting program was inconsistent with
requirements for grant funding. The Department stated that it will work with
FWS to resolve the $1.5 million questioned costs.

FWS Response

FWS concurred with the audit findings and recommendations and stated that it
supports the concepts proposed by the Department to resolve and implement the
recommendations.




                                 5
     OIG Comments

     While the Department has taken steps to evaluate whether its public hunting
     program was appropriate for grant funding, additional information is needed in
     the corrective action plan verifying FWS reviewed and accepted the results of the
     Department’s review and resolved the $1.5 million in questioned costs. The
     corrective action plan should also include targeted completion dates and titles of
     officials responsible for the actions proposed.

2.   Unauthorized or Unspecified Locations — $678,033

     Grants W-124-M-13, W-124-M-14, and W-124-M-15 provided funds for the
     operation, maintenance, and management of specific locations. The Department
     included in its claim $904,044 for expenditures ($678,033 federal share) at
     unspecified locations or locations not specifically approved in the grant
     agreements (see Appendix 3). The Code of Federal Regulations (50 C.F.R. §
     80.16) states that payments shall be made for the federal share of allowable costs
     incurred by the state in accomplishing approved projects. Section 80.15 defines
     allowable costs as those necessary to accomplish project purposes. Work
     performed at locations other than those specified in the grant does not accomplish
     project purposes.

     Recommendations

     We recommend FWS:

     1. resolve the $678,033 questioned costs and

     2. require the Department to develop and implement procedures which ensure
        only expenditures at authorized locations are charged to the grants.

     Department Response

     The Department stated that it identified substitutable costs of $904,044 out of the
     matching expenditures for these grants and submitted revised financial status
     reports (SF-269s) to FWS. The Department stated that it revised its procedures
     on the preparation and review of federal claims.

     FWS Response

     FWS concurred with the audit findings and recommendations and stated that it
     supports the concepts proposed by the Department to resolve and implement the
     recommendations.




                                      6
                  OIG Comments

                  While the Department indicated that it has taken steps to develop procedures to
                  ensure only expenditures at authorized locations are charged to the grants,
                  additional information is needed in the corrective action plan verifying FWS
                  reviewed and accepted the results of the Department’s resolution of questioned
                  costs. The corrective action plan should also include targeted completion dates
                  and titles of officials responsible for the actions proposed.

         3.       In-kind Costs — $283,366

                  The Department claimed in-kind matching costs that included volunteer hours
                  outside the grant period and unsupported volunteer hours. In addition, the
                  Department does not require volunteers to certify their hours, although it does
                  require its employees to submit signed timesheets.

                  Title 43 C.F.R. §12.43 defines third party in-kind contributions as property or
                  services contributed by a non-federal third party which benefit a federally assisted
                  project or program. Matching requirements satisfied by the value of such in-kind
                  contributions must be made during the grant period (43 C.F.R. §12.64(a)(2)).
                  Volunteer services, to the extent feasible, should be supported by the same
                  methods that the organization uses to support the allocation of regular personnel
                  costs (43 C.F.R. § 12.64 (b)(6)).

                  The Department determined total class hours based on the date the course was
                  entered into the database rather than on the course completion date; claimed
                  unsupported self-study hours in the total volunteer hours under the W-104-S
                  grants; and claimed class participants as in-kind under grant F-82-E since they
                  volunteered to take the course and would be presenting the course materials. As
                  detailed in the following schedule, we are questioning matching costs based on
                  31,066 in-kind hours claimed that were incurred outside the grant period or were
                  not adequately supported.

                          Out of                    Claimed Questioned Questioned
                          Period Unsupported Total In-Kind    In-Kind    Federal
           Grant          Hours    Hours     Hours   Costs     Costs      Share
        F-82-E-12             73    4,094     4,167 $108,334   $50,004   $31,445
        F-82-E-13            581    4,483     5,064 122,880     60,768     29,202
        W-104-S-31         6,028    5,256    11,284 245,949    135,408   101,556
                                                            2            121,163
        W-104-S-32         4,923    5,628    10,551 142,562    126,612
                          11,605   19,461    31,066 $619,725 $372,792   $283,366



2
  The financial status report (SF-269) that the Department submitted to FWS did not identify the state share of the
net outlays. As such, we computed the share based on the difference between the claimed net outlays and the
federal share claimed.

                                                          7
     Recommendations

     We recommend FWS:

     1. resolve the $283,366 total questioned costs and

     2. require the Department to establish and implement procedures for determining
        allowable volunteer hours and require all volunteers to certify their hours
        worked.

     Department Response

     The Department concurred with the audit finding, with the exception of class
     participants claimed as in-kind match on Aquatic Education grants. The
     Department stated that it now claims in-kind volunteer hours completed in the
     grant period, supported by signed volunteer certifications, and excludes self-study
     hours. The Department did not concur with the portion of the audit finding
     related to the Aquatic Education grants and stated that it claimed class participants
     as in-kind since these participants were future instructors of the course and were
     taking the course to learn how to teach the class.

     FWS Response

     FWS concurred with the audit findings and recommendations and stated that it
     supports the concepts proposed by the Department to resolve and implement the
     recommendations.

     OIG Comments

     While the Department has taken steps to establish procedures for determining
     allowable volunteer hours, additional information is needed in the corrective
     action plan verifying FWS reviewed and accepted the actions proposed to
     implement the audit recommendations.

4.   Costs Claimed That Were Not Allowed — $75,000

     The Department claimed a contribution of $100,000 to Ducks Unlimited under
     grant W-128-R-11 that was not allowed under the grant agreement. Title 2 C.F.R.
     225, appendix B, section 12(a) classifies contributions or donations (including
     cash, property, and services) by the governmental unit as an unallowable cost,
     regardless of the recipient. The claim occurred because the Department did not
     have procedures to identify those costs that were not allowed under the grant
     agreement.




                                       8
     Recommendations

     We recommend FWS:

     1. resolve the $75,000 in questioned costs; and

     2. require the Department to establish procedures to review grant charges,
        ensuring expenditures were allowed by the grant agreement.

     Department Response

     The Department stated that it has revised its procedures on the review and
     preparation of federal claims to identify any expenditure types that are not
     allowable under grant terms. The Department also stated that the grant in
     question has substitutable costs that it listed on a revised SF-269 submitted to
     FWS.

     FWS Response

     FWS concurred with the audit findings and recommendations and stated that it
     supports the concepts proposed by the Department to resolve and implement the
     recommendations.

     OIG Comments

     While the Department has taken steps to establish procedures to review grant
     charges, ensuring expenditures are allowable by the grant agreement, additional
     information is needed in the corrective action plan verifying FWS reviewed and
     accepted the results of the Department’s review and proposed actions.

5.   Out-of-Period Costs — $866

     The Department claimed costs under grant W-131-S-9 incurred in a prior period.
     Title 43 C.F.R. § 12.63(a) requires that when a funding period is specified, a
     grantee may charge to the award only costs resulting from obligations during the
     funding period. Title 43 C.F.R. § 12.43 defines obligations as the orders placed,
     contracts and subgrants awarded, goods and services received, and similar
     transactions during a given period that will require payment by the grantee during
     the same or a future period.

     The Department’s billing procedures included identifying the claimed expenditure
     by the invoice date. However, for the $1,155 costs ($866 federal share) that we
     are questioning, the credit card billing date was in the grant period but the
     expenditures were applicable to a prior period.




                                       9
            Recommendations

            We recommend FWS:

            1. resolve the $866 in questioned costs and

            2. require the Department review all grant charges during the initial months of a
               grant to determine if the costs were incurred within the grant period.

            Department Response

            The Department stated that it has revised its procedures on the review and
            preparation of federal claims to determine if any of the charges are outside the
            agreement period. The Department also stated that the grant in question has
            substitutable costs that it listed on a revised SF-269 submitted to FWS.

            FWS Response

            FWS concurred with the audit findings and recommendations and stated that it
            supports the concepts proposed by the Department to resolve and implement the
            recommendations.

            OIG Comments

            While the Department has taken steps to identify and eliminate grant charges that
            are outside the agreement period, additional information is needed in the
            corrective action plan verifying FWS reviewed and accepted the results of the
            Department’s review and resolution of this issue.

B.   Inadequate Accounting for License Revenue Use

     In SFYs 2003 and 2004, the Department reported to FWS that it did not divert license
     revenues because expenditures on allowable uses of that revenue exceeded the total
     revenue. However, the Department’s procedures for reporting expenditures were not
     adequate to demonstrate whether the Department used license revenues solely for
     allowable purposes.

     Title 50 C.F.R. § 80.4 prohibits revenues from hunting and fishing license fees from
     being diverted to purposes other than the administration of the state fish and wildlife
     agency. Part 80.4(b) specifies that the administration of a state fish and wildlife agency
     include only those functions required to manage the fish and wildlife-oriented resources
     of the state. In addition, Texas Parks and Wildlife Code Title II, Chapter 11.033(b)
     requires the Department to use the money from hunting and fishing license fees to
     manage the state’s fish and wildlife resources.

     The Department deposits license revenues, along with revenue from other sources, in its
     Game, Fish, and Water Safety Fund (Fund 9). The Department commingles license

                                             10
     revenue with other revenue in these funds. To demonstrate it spends the license revenue
     portion of Fund 9 solely to manage fish and wildlife resources, the Department reports
     total expenditures from license revenues to FWS. The Department developed this
     procedure in response to an August 21, 2002 FWS memorandum, which addressed a
     prior audit recommendation. However, the Department’s expenditure report includes
     expenditures funded from sources other than the license revenues in Fund 9, which
     contains the majority of the license revenue. We could therefore not determine whether
     license revenue was spent appropriately.

     Recommendations

     We recommend FWS require the Department to:

     1. account for uses of all license revenues for SFYs 2003 and 2004 and

     2. establish written policies and procedures to demonstrate it spends license revenue
        solely to manage fish and wildlife resources.

     Department Response

     The Department stated that it revised the methodology used to document that it
     appropriately used license revenue for the audit period and for future years. The
     Department also stated that a formal submission of the SFY2006 use of license revenue
     certification will be filed with the FWS in the near future.

     FWS Response

     FWS concurred with the audit findings and recommendations and stated that it supports
     the concepts proposed by the Department to resolve implement the recommendations.

     OIG Comments

     While the Department has taken steps to establish policies and procedures to demonstrate
     it spends license revenue solely to manage fish and wildlife resources, additional
     information is needed in the corrective action plan verifying FWS reviewed and accepted
     the results of the Department’s review and proposed resolution of this issue, including the
     proposed timeline. The corrective action plan should also include targeted completion
     dates and titles of officials responsible for the actions proposed.

C.   Unsupported Program Income

     The Department did not maintain the support necessary to identify the sources of
     program income, totaling approximately $946,000, reported on the financial status
     reports for nine Federal Assistance grants.

     Title 43 C.F.R. § 12.60(a) (2) requires the state’s financial management system to permit
     the tracing of funds at a level adequate to establish compliance with grant provisions.

                                             11
Program income is gross income received by a grantee directly generated by a grant-
supported activity; it includes income from services performed and the sale of
commodities (43 C.F.R. § 12.65). Part 12.65(g) requires program income to be deducted
from total grant costs to determine the net costs on which the federal share is based. With
FWS approval, program income may be added to the project funds to further implement
eligible program projects or be used to meet the cost sharing or matching requirement.

According to Departmental officials,

   • the individual who prepared the grant Financial Status Reports, which included
     program income, has retired;

   • current Department staff did not know the source of the program income
     information included in the grant Financial Status Reports; and

   • the Department has not established policies and procedures for recording and
     reporting program income.

We asked the Department to reconstruct reported program income for selected grants.
The Department could not reconcile the reported program income amounts. As a result,
we could not determine if the program income reported was accurate and complete.
However, we reviewed the Department’s reconstruction and identified about $328,000 of
potentially unreported program income from grazing, gas production, and land easements
on Wildlife Management Areas.

Recommendations

We recommend FWS require the Department to:

1. establish policies and procedures to maintain records to support the program income
   amounts reported;

2. resolve the $946,000 in unsupported program income; and

3. conduct a comprehensive review of its income-generating activities for the audit
   period to determine if the income generated, including the $328,000 identified in our
   audit, should be reported as program income.

Department Response

The Department stated that it has developed procedures to maintain records to support the
program income amounts reported. The Department also stated that it has reviewed the
reported program income and determined that program income of about $27,000 was
under-reported on two grants.




                                        12
     FWS Response

     FWS concurred with the audit findings and recommendations and stated that it supports
     the concepts proposed by the Department to resolve implement the recommendations.

     OIG Comments

     While the Department has taken steps to establish policy and procedures to maintain
     records to support the program, additional information is needed in the corrective action
     plan verifying FWS reviewed and accepted the results of the Department’s review and
     resolution of program income reporting, including the under-reported program income.
     The corrective action plan should also include targeted completion dates and titles of
     officials responsible for the actions proposed.

D.   Noncompliance With Real Property and Equipment Controls

     The Department does not require the asset inventory to identify the funding source for
     property listed on the inventory. As a result, we could not determine whether Federal
     Assistance property is being used for the purpose for which it was acquired. In
     conducting activities funded under the Acts, the state is accountable for and must control
     all assets to assure that they serve their intended purpose throughout their useful life (50
     CFR § 80.18(c)).

     Recommendation

     We recommend FWS require the Department to account for and control property
     purchased with Federal Assistance grant funds in a manner that assures the property is
     used for its intended purpose.

     Department Response

     The Department stated that, in the past, it failed to track information on the assets
     purchased with Federal Assistance grants. However, the Department has initiated a
     process, expected to be completed in November 2008, to research and identify which
     assets with a remaining useful life were purchased with Federal Assistance grants.

     FWS Response

     FWS concurred with the audit findings and recommendations and stated that it supports
     the concepts proposed by the Department to resolve implement the recommendations.

     OIG Comments

     While the Department has taken steps to account and control property purchased with
     Federal Assistance funding, additional information is needed in the corrective action plan
     verifying FWS reviewed and accepted the results of the Department’s proposed


                                              13
     resolution and timeframes. The corrective action plan should also include titles of
     officials responsible for the actions proposed.

E.   Duplicate Licenses Not Eliminated

     The Department did not eliminate duplicate license holders from its annual license
     certification for license years 2003 and 2004, as required by Title 50 C.F.R. § 80.10
     (c)(5). This regulation states that an individual shall not be counted more than once as a
     hunting or fishing license holder. To ensure states meet this requirement, FWS requires
     states to report the number of hunting and fishing license holders and certify the accuracy
     of their counts. The state is responsible for certifying that it eliminated duplications.

     The Department relied exclusively on a system query of the License Sales System
     database to generate sales and revenue data for the annual certification. However, the
     query generated only gross sales and revenue data for all license types sold during the
     license year. There was no further process or procedure to eliminate any duplicate
     license holders.

     The FWS apportionment of grant funds is based, in part, on the number of license
     holders. Therefore, accurate license certifications are necessary to assure each state
     receives its fair share of funds. It should be noted that the inclusion of the duplicate
     license holders would not impact the apportionment to Texas.

     Recommendation

     We recommend that FWS require the Department to develop and implement an effective
     methodology to identify or estimate and eliminate duplicate license holders in its annual
     license certifications.

     Department Response

     The Department stated that its license system provider is now required to provide a
     feature that assists Department staff in identifying duplicate license holders. The
     Department anticipates that the ability to eliminate duplicate license holders will be
     available for its 2006 license year certification.

     FWS Response

     FWS concurred with the audit findings and recommendations and stated that it supports
     the concepts proposed by the Department to resolve and implement the recommendation.

     OIG Comments

     While the Department has taken steps to develop a methodology to identify and eliminate
     duplicate license holders in its annual certifications, additional information is needed in
     the corrective action plan verifying FWS reviewed and accepted the Department’s


                                              14
resolution of this issue and targeted timeframes. The corrective action plan should also
include titles of officials responsible for the actions proposed.




                                        15
                                                             Appendix 1
                                                                  Page 1 of 4

              TEXAS PARKS AND WILDLIFE DEPARTMENT
             FINANCIAL SUMMARY OF REVIEW COVERAGE
            SEPTEMBER 1, 2002 THROUGH AUGUST 31, 2004

                                              Questioned Costs
 Grant            Grant      Claimed                     Federal
Number           Amount       Costs1        Total         Share

F-22-D-33        $325,332    $230,337
F-22-D-34         336,667     196,385
F-22-D-35         336,667     227,541
F-30-R-27       3,500,000   3,381,577
F-30-R-28       4,000,000   3,574,257
F-30-R-29       4,000,000   3,597,879
F-31-R-28          35,000      31,748
F-34-M-19       1,460,000   1,823,108
F-34-M-20       1,460,000   1,771,602
F-34-M-21       1,500,000   1,944,259
F-36-R-17          37,500      44,500
F-36-R-18          10,000      25,540
F-59-D-13         216,352     259,417
F-59-D-14         250,000     320,636
F-59-D-15         260,000     362,539
F-82-E-12         433,333     633,130     $50,004       $31,445
F-82-E-13         450,000     426,024      60,768        29,202
F-87-M-4          934,691     712,289
F-90-D-7          741,100     725,443
F-90-D-8          700,000     742,883
F-91-D-6          820,000   1,107,807
F-91-D-7        1,055,697   1,097,364
F-91-D-8        1,569,000   1,591,429
F-92-D-9        1,050,000     820,899
F-92-D-10       1,050,000     952,680
F-92-D-11       1,050,000   1,056,548
F-95-D-9          623,000     640,421
F-95-D-10         650,000     664,980
F-95-D-11         640,420     744,803
F-96-D-9          624,000     637,510
F-96-D-10         624,000     786,507
F-96-D-11         400,000     878,402
F-98-D-9          445,240     445,052
F-98-D-10         408,512     442,054




                               16
                                                           Appendix 1
                                                             Page 2 of 4

              TEXAS PARKS AND WILDLIFE DEPARTMENT
             FINANCIAL SUMMARY OF REVIEW COVERAGE
            SEPTEMBER 1, 2002 THROUGH AUGUST 31, 2004

                                               Questioned Costs
 Grant          Grant      Claimed                        Federal
Number         Amount       Costs1       Total             Share

F-98-D-11       408,512     471,452
F-101-D-6     1,241,788   1,361,020
F-101-D-7     1,241,788   1,313,860
F-101-D-8     1,361,020   1,521,077
F-115-1-1     1,255,793   1,038,759
F-117-D-4        10,000      12,268
F-117-D-5     1,172,000      20,415
F-122-D-1       753,294     712,319
F-123-B-1     1,194,593   1,132,925
F-124-B-1     1,200,000   1,297,375
F-125-E-3       848,632   1,034,975
F-125-E-4     1,185,612   1,029,844
F-129-O-2        42,000      32,960
F-129-O-3        42,000      28,443
F-129-O-4        42,000      31,462
F-130-B-1     1,200,000   1,164,281
F-131-B-1     1,730,332   1,630,015
F-133-M-1       282,633     335,178
F-133-M-2       241,728     303,097
F-133-M-3       269,000     347,729
F-134-R-1        34,352       7,694
F-134-R-2        34,352      38,191
F-134-R-3        75,004      18,393
F-135-R-1        32,176      38,931
F-135-R-2         6,300      38,732
F-136-R-1        22,328       3,871
F-136-R-2        22,328       9,149
F-137-R-1        37,500      30,745
F-137-R-2        10,000      50,056
F-138-P-1        90,040      51,319
F-139-T-1       680,000     967,473
F-139-T-2       770,000   1,370,501
F-139-T-3       770,000   1,182,274
F-140-T-1       770,000     856,738
F-140-T-2       770,000     997,675
F-140-T-3       770,000     918,820


                             17
                                                           Appendix 1
                                                             Page 3 of 4

               TEXAS PARKS AND WILDLIFE DEPARTMENT
              FINANCIAL SUMMARY OF REVIEW COVERAGE
             SEPTEMBER 1, 2002 THROUGH AUGUST 31, 2004

                                                Questioned Costs
 Grant           Grant      Claimed                        Federal
Number          Amount       Costs1       Total             Share


F-141-B-1      1,200,000     994,858
F-142-R-1         22,643       1,293
F-142-R-2         34,352      15,545
F-142-R-3         12,150      35,404
F-143-R-1         34,352       7,315
F-143-R-2         34,352       6,077
F-143-R-3         34,352      26,397
F-144-R-1         34,352      20,214
F-144-R-2         34,352      46,321
F-144-R-3         34,352      35,923
F-145-R-1         32,300       7,707
F-145-R-2         24,500      40,256
F-145-R-3         24,500      23,465
F-146-R-1         25,300      13,162
F-146-R-2         14,300       4,271
F-146-R-3         14,300      14,682
F-147-B-1      1,200,000           0
F-148-M-1         40,000     100,014
F-148-M-2         40,000      59,201
F-149-M-1         40,000      35,572
F-149-M-2         40,000      57,961
F-150-M-1        611,650      75,000
F-151-R-1         39,000      21,227
F-153-B-1        348,466     144,900
FW15-O-7          80,000      89,913
FW-15-O-8         80,000     117,732
FW-15-O-9         80,000     101,531
FW-18-O-1         92,000      51,044
FW-19-O-2        112,667     145,864
FW-19-O-3        112,667     109,665
FW-19-O-4        112,667     114,256
W-104-S-31     1,740,000   1,146,023    135,408             101,556
W-104-S-32       710,000     847,376    126,612             121,163
W-107-R-29     2,000,000   3,011,637
W-107-R-30     2,000,000   2,882,963


                              18
                                                                           Appendix 1
                                                                             Page 4 of 4

                     TEXAS PARKS AND WILDLIFE DEPARTMENT
                    FINANCIAL SUMMARY OF REVIEW COVERAGE
                   SEPTEMBER 1, 2002 THROUGH AUGUST 31, 2004

                                                             Questioned Costs
      Grant             Grant         Claimed                           Federal
     Number            Amount          Costs1          Total             Share

    W-122-S-7             700,000        690,631
    W-122-S-8             320,000        198,842
    W-124-M-13          4,500,000      4,081,978       203,676              152,757
    W-124-M-14          4,000,000      4,509,824       498,585              373,939
    W-124-M-15          2,000,000      4,606,152       201,783              151,337
    W-126-R-11            300,000        323,486
    W-126-R-12            900,000        313,480
    W-126-R-13            300,000        335,717
    W-127-R-11          1,000,000        988,931
    W-127-R-12            900,000        910,980
    W-127-R-13            500,000        974,404
    W-128-R-11            510,463        758,624       100,000                75,000
    W-128-R-12            603,750        777,966
    W-129-M-13          1,750,000      2,553,159
    W-129-M-14          2,000,000      2,742,433

    W-131-S-8          1,000,000      1,473,664     1,473,6642              750,000
    W-131-S-9          1,000,000      1,430,168     1,430,1682              750,000
    W-132-R-3            295,000        319,256
    W-132-R-4            415,000        297,090
    W-134-R-2             87,250         68,444
    W-134-R-3             87,250         48,443
    W-134-R-4            107,250         48,155
    W-135-M-2            724,017      1,209,776
    W-135-M-3            500,000      1,393,167
                     $88,203,171    $95,757,105     $4,280,668           $2,536,399


1 Amount represents the total outlays reported on the final SF-269.
2 Does not include out-of-period costs of $1,155 since we already questioned the total
grant costs.




                                        19
                                                          Appendix 2

     TEXAS PARKS AND WILDLIFE DEPARTMENT
                 SITES VISITED

                    Headquarters

                    Austin, Texas


                       Wildlife

            Region 4 Office, Rockport
 Guadalupe Delta Wildlife Management Area (WMA)
                 Mad Island WMA
                 Peach Point WMA

                Region 2 Office, Waco
                Richland Creek WMA
                 Gus Engeling WMA


                      Fisheries

Coastal Fisheries Lower Coast Regional Office, Rockport
        Coastal Fisheries Field Office, Rockport
 CCA/CPL Marine Development Center, Corpus Christi
  TAMUCC Natural Resources Center, Corpus Christi
     Coastal Fisheries Field Office, Port O’Connor
        Perry R. Bass Research Station, Palacios
         Coastal Fisheries Field Office, Palacios
             Sea Center Texas, Lake Jackson
            Dickinson Marine Lab, Dickinson

        Inland Fisheries Region 2 Office, Waco
         Inland Fisheries District Office, Waco
       Texas Freshwater Fisheries Center, Athens




                          20
                                                                     Appendix 3
                                                                      Page 1 of 2


        COST CLAIMED FOR UNAUTHORIZED/UNIDENTIFIED LOCATIONS
                GRANT W-124-M SEGMENTS 13, 14, AND 15

   LOCATION                                 GRANT SEGMENTS
CODE   DESCRIPTION                          #13    #14       #15      TOTALS
21     Lake Aquilla                           $0    $146        $0         $146
114    Lake Brownwood                          0                 0            9
247    Dorn Boss Park Lake                     0       22        0           22
285    Forest Grove Lake                       0       28        0           28
391    Hearne East Side Park Lake              0        9        0            9
550    Old Anson City Lake                   395        0        0          395
C235   Victoria County                       188        0        0          188
H999   Leased Hunting Areas                9,814   33,704   22,770       66,288
P010   Indian Lodge                          188        0        0          188
P027   Atlanta SP                          3,425    3,153      971        7,549
P031   Martin Dies Jr SP                     805      838        0        1,643
P037   Mission Tejas SHP                       0    1,875       18        1,893
P039   Tyler SP                            2,281      796       31        3,108
P043   Bastrop SP                          1,803        0        0        1,803
P044   Huntsville SP                         877    3,444        0        4,321
P052   Varner Hogg Plantation SHP            117      531        0          648
P058   Bentsen-Rio Grande Valley SP          350        0        0          350
P064   Goose Island SP                         0       23      128          151
P078   Fairfield Lake SP                   5,928    1,243        0        7,171
P111   Martin Creek Lake SP                  284        0        0          284
P116   South Llano River SP                    0       14        0           14
P117   Lake Bob Sandlin SP                     0       93        0           93
P128   Lake Houston SP                     1,967    3,517        0        5,484
P138   Sheldon SP                              0        0      212          212
P140   Colorado Bend SP                      342    2,611        0        2,953
P142   Lake Tawakoni SP                        0      185        0          185
P146   Fort Boggy SP                         350      312       18          680
P147   Kickapoo Cavern SP                    403        0        0          403
P165   Government Canyon SP                    0      159        0          159
P177   Barrington Farm                         0    1,011        0        1,011
S001   Fountain Park Plaza - Austin            0       97        0           97
       Wildlife District 6 Office -
S040   Jasper                                 0       22        0            22
       Las Palomas WMA - Tucker-
W212   Deshazo Unit                           0       23        0            23
       Las Palomas WMA -
W214   Carricitos Unit                        0        0      106           106



                                      21
                                                                           Appendix 3
                                                                               Page 2 of 2


       COST CLAIMED FOR UNAUTHORIZED/UNIDENTIFIED LOCATIONS
                 GRANT W-124-M SEGMENTS 13, 14, AND 15

  LOCATION                                        GRANT SEGMENTS
CODE  DESCRIPTION                               #13    #14    #15              TOTALS

W702     Old Tunnel WMA                           462       1,590      1,487       3,539
         Lipscomb County Potential WMA
W706     Site                                      480      2,778        100       3,358
W710     Nannie M Stringfellow WMA              19,114    103,261     27,744     150,119
W727     White Oak Creek WMA                     5,164      8,246        540      13,950
W730     Cooper Reservoir WMA                    2,736      2,381      4,316       9,433
         Playa Lakes WMA - Taylor Lakes
W741     Unit                                        0        138      2,482       2,620
W749     Mason Mountain WMA                      2,101        345          0       2,446
W751     Caddo Lake WMA                          5,695     40,930     21,092      67,717
W771     Playa Lakes WMA - General                   0          0     11,612      11,612
         Upper Coast Wetlands
W778     Management                                 0       5,724        424       6,148
W779     Midcoast Wetlands Management             648         744      7,606       8,998
         Unspecified Wildlife Management
W999     Area                                 36,260       56,269     15,300    107,829
XXXX     Unspecified                         101,499      222,314     84,826    408,639
                                            $203,676     $498,585   $201,783   $904,044

         *SP State Park
         SHP State Historic Park/Site
         WMA Wildlife Management Area




                                           22
                                                                                   Appendix 4

                 TEXAS PARKS AND WILIDLIFE DEPARTMENT
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


 Recommendations                      Status                        Action Required

A.1.1, A.1.2, A.2.1,      FWS management concurs,         Provide a corrective action plan that
A.2.2, A.3.1, A.3.2,      but additional information is   identifies the actions taken or planned
A.4.1, A.4.2, A.5.1,      needed as outlined in the       to resolve and implement the
A.5.2, B.1, B.2, C.1,     “Action Required” column.       recommendations. The plan should
C.2, C.3, D.1, and E.1.                                   also include the targeted completion
                                                          date(s) and the title(s) of the official
                                                          responsible for implementation of
                                                          each recommendation, as well as
                                                          verification that FWS reviewed and
                                                          approved of actions taken or planned
                                                          by the state. Any recommendations
                                                          that are not implemented at the end of
                                                          90 days (after April 30, 2007) will be
                                                          referred to the Assistant Secretary for
                                                          Policy, Management and Budget for
                                                          resolution and/or tracking of
                                                          implementation.




                                               23
